op eek

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

contact@cocklelegalbrief’.com

Est. 1923,
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-793
INSTITUTE FOR FREE SPEECH,
Petitioner,
v.
XAVIER BECERRA,
Attorney General of California,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITIONER’S REPLY
BRIEF in the above entitled case complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2960 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 15th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Hear Onhawh Gh,

Affiant 39814

    

f GENERAL MOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

Notary Public
